                            Office of the Inspector General
                   Corporation for National and Community Service




                              Pre-Audit Survey of the
                              Tennessee Commission
                        on National and Community Service


                           OIG Audit Report Number 00-09
                                September 24,1999




                                         Prepared by:
                                   Urbach Kahn & Werlin, PC
                                   1030 Fifteenth Street, N.W.
                                    Washington, D.C. 20005

                               Under CNS 01G MOU # 98-046-5003
                                  With the Department of Labor
                                     Contract # 5-9-G-8-0024
                                     Task Order B9G9X102


This report was issued to Corporation management on February 9, 2000. Under the
laws and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
August 7, 2000, and complete its corrective actions by February 9, 2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                        CORPORATION
                                 Office of Inspector General                            FOR NATIONAL
                       Corporation for National and Community Service

                                Pre-Audit Survey of the
                 Tennessee Commission on National and Community Service
                             OIG Audit Report Number 00-09

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements ofthe Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, ArneriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of ArneriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

TheJirst of the ourpre-audit surveys was performed at the Tennessee Commission on National and
Community Service by Urbach Kahn and Werlin PC. Their report, whichfollows, indicates that the
Tennessee Commission has established effective controls over pre-award and grant selection
procedures, Jiscal administration, monitoring of subgrantees, AmeriCorps Member activities and
service hour reporting, and the use of training and technical assistance funds. We have reviewed
the report and work papers supporting its conclusions, and we agree with the findings and
recommendations presented.


                                                                                     Inspector General
                                                                                     1201 New York Avenue, NW
                                                                                     Washington, DC 20525
                                    Office of the Inspector General
                            Corporation for National and Community Service

                                       Pre-Audit Survey Report of the
                                   Tennessee Commission On National And
                                             Community Service



                                                     Table of Contents


Pre-Audit Survey Report

  Results in Brief ........................................................................................................................... 1

  Background .................................................................................................................................2
                                . .
  Overview of the Tennessee Commission .................................................................................2

  Objectives, Scope and Methodology ......................................................................................3

  Findings and Recommendations ................................................................................................ 5


Appendices

  Appendix A - Tennessee Commission Funding - 1995 through 1999 ..................................... 9

  Appendix B - Detailed Engagement Objectives and Methodology .........................................14

  Appendix C - Tennessee Commission Response ...................................................................... 17

  Appendix D - Corporation Response ........................................................................................ 18
UK Urbach Kahn &Werlin PC
& ! CERTIFIED PUBLIC ACCOUNTANTS

         Inspector General
         Corporation for National and Community Service

         At your request, Urbach Kahn & Werlin PC, performed a pre-audit survey of the Tennessee
         Commission on National and Community Service. The primary purpose of this survey was to
         provide a preliminary assessment of:

                the adequacy of the pre-award selection process;

                the fiscal procedures at the Commission;

                the effectiveness of monitoring of the Tennessee State Commission subgrantees,
                including ArneriCorps Member activities and service hours; and

                the controls over the provision of training and technical assistance.

         We were also asked to report on the recommended scope of additional audit procedures to be
         performed at the Tennessee Commission.


         RESULTS IN BRIEF

         Based on the results of the limited procedures performed, our preliminary assessment is that
         the Tennessee Commission has established effective controls in the following areas:

                pre-award and grant selection process;

                fiscal administration of grants;

                monitoring of ArneriCorps subgrantees;

                ArneriCorps Member oversight and service hour monitoring; and

                the use of training and technical assistance funds.

         However, we did note two areas for improvement related to the receipt and maintenance of
         signed conflict of interest forms and Financial Status Reports. The section entitled Findings
         and Recommendations describes these matters in detail.

         Based on our preliminary assessment, we do not believe a full-scope financial audit of the
         Tennessee Commission's programs is necessary at this time. We recommend that the
         Corporation follow up with the Commission to determine that appropriate corrective actions
         are put into place to address the conditions reported herein and that the Corporation consider
         these conditions in its oversight and monitoring of the Tennessee State Commission.
BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, AmeriCorps Members perform service to help meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeviCorps
State/National funds to State Commissions. State Commissions are required to include 15 to
25 voting members. Each Commission has a responsibility to develop and communicate a
vision and ethic of service throughout its State.

The State Commissions provide AmeriCorps funding to approved applicants for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to AmeriCorps State and National Direct
programs and to the broader network of service programs in the state. The Commissions are
prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that
must be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities, and
provide effective control and accountability for all grant and subgrant cash, real and personal
property, and other assets.


0 VERVIEW OF THE TENNESSEE COMMISSION

The Tennessee Commission on National and Community Service, headquartered in
Nashville, Tennessee, has been providing national and community service programs in its
current form since 1995. The Commission reported that it received funding from the
Corporation totaling $2,320,794 in 1995; $3,217,55 1 in 1996; $2,811,233 in 1997;
$3,422,029 in 1998; and $3,848,014 in 1999. Additional information on the Commission's
funding is presented in Appendix A.
The Commission currently has five full-time staff consisting of an Executive Director, three
Program Officers, and one Systems Coordinator. The Commission's Program Officers
monitor subgrantee activity as part of their responsibilities, although not full-time.

In addition, the Commission has established a contract with an independent state agency, the
Department of Finance Program Accountability Review Group, commonly referred to as the
PAR Team, to provide fiscal and program reviews and perform site visits in order to monitor
subgrantees. The PAR Team also performs procedures to assess a subgrantee's compliance
with program requirements, including those related to Member service hour reporting (i.e.,
Members are performing allowable activities, and service hours reported to the Commission
for Members are supported by adequate documentation).

As part of The State of Tennessee, the Commission is annually subject to OMB Circular
A-133 audits. There were no major programs identified at the Commission during the 1995
through 1998 period under review and the 1999 OMB Circular A-133 audit had not been
completed as of the end of our fieldwork on September 24, 1999.

The Commission provided us with the following information regarding subgrantee audits:

                  Total Amount of
                    Corporation                                     Number of
                       Funds              Number of            Subgrantees Subject
Program Year        Sub~ranted           Submantees        To A-133 Audit Requirements




Appendix A contains more detailed information on funding received from the Corporation
for program years 1995 through 1999.

OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in
place at the Commission for administering grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this survey was to provide a preliminary assessment of

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of Tennessee Commission subgrantees, including
       AmeriCorps Member activities and service hours; and
       the controls over the provision of technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Tennessee Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Corporation's State
       Commission Reference Manual, and other information to gain an understanding of
       legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 reports and current program year grant agreements
       for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of ArneriCorps grant funding for program years 1995
       through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       funds, evaluation and monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in
place at the Commission using inquiries, observations, and examination of a sample of
source documents. Finally, we summarized the observations to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on September 24, 1999.

Our procedures were performed in accordance with Government Auditing Standards issued
b y the Comptroller General of the United States. We were not engaged to, and did not,
perform an audit of any financial statements, and the procedures described above were not
sufficient to express an opinion on the controls at the Commission or its compliance with
applicable laws, regulations, contracts, and grants. Accordingly, we do not express an
opinion on any such financial statements or on the Commission's controls and compliance.
Had we performed additional procedures, other matters might have come to our attention that
would have been reported to you.

We provided a draft of this report to the Tennessee Commission and the Corporation for
National and Community Service. The Commission's and the Corporation's responses to our
findings and recommendations are included as Appendix C and Appendix D, respectively.
FINDINGS AND RECOMMENDATIONS

Based upon the limited procedures performed, and the results of our testing, including the
impact of the findings detailed below, our preliminary assessment is that the Commission has
established effective controls in the following areas:

       pre-award and grant selection process;

       fiscal administration of grants;

       monitoring of subgrantees;

       AmeriCorps Member oversight and service hour monitoring; and

       the use of training and technical assistance funds.

The continued effectiveness of the Commission's controls is dependent upon the continued
involvement of the Program Accountability Review Group. As discussed above in the
overview, the PAR Team provides fiscal and program reviews, and performs site visits to
monitor subgrantees. The PAR Team provides monitoring of these programs in addition to
the monitoring performed by the Commission Program Officers.

Contracting its monitoring and oversight responsibilities to the PAR Team appears to be the
most critical component of the Commission's effective monitoring efforts. If the Commission
were to reduce the scope of work that the PAR Team is performing or to not include the PAR
Team in its monitoring and oversight functions, we believe it would be difficult for the
Commission to continue maintaining effective controls without significant staff restructuring
and training.

During our review, we identified two matters involving the Commission's internal controls
that did not rise to the level of a significant deficiency. A discussion of these conditions, as
well as our recommendations for corrective action follow.

     The Commission did not maintain all signed conflict of interest forms as required

Section 3.6 of the Reference Manual for Commission Executive Directors and Members
states "Commissions should strive to achieve the greatest objectivity and impartiality
possible in the review and selection of grantees in the state." The section continues to state
"As defined by the Act, a Commission member or peer review panel member is considered to
have a conflict of interest if the member is currently, or was within one year of the
submission of a grant application to the Commission: an officer, a director, a trustee, a full-
time volunteer or an employee of an organization submitting a grant application to the State
Commission."
Page 3-30 of Section 3.6 states "If a Commission member has a conflict of interest, the
member must recuse himselflherself from the State Commission's administration of the grant
program, including such activities as any discussions or decisions by the Commission
regarding the provision of funds or education awards to any program or entity funded under
the same funding categovy. "

The Tennessee Commission requires all Commission Members and peer review panel
members to read and sign the conflicts of interest statements prior to the application review
process. However, the Commission was not able to locate all signed conflict of interest
statements for three of six subgrantee files tested at the Tennessee State Commission. The
three files were missing approximately one or two of the 12 to 15 required conflict of interest
forms from the 1996 selection process.

Because the Commission could not provide all signed conflict of interest forms, we could not
determine whether conflict of interest forms were properly completed by all Commission and
peer review panel members in the 1996 grantee selection process. Therefore, while conflict
forms were available for other years tested and appeared to be in order, we were unable to
determine if the individual reviewer confirmed a lack of conflict of interest in 1996.

We recommend that the Executive Director ensure that the Commission obtain and maintain
copies, signed and dated by the Commission and peer review panel members, of all required
conflict of interest forms for each grant applicant on file. In addition, we recommend that the
Corporation follow up with the Commission to determine that appropriate corrective actions
are put into place to address the conditions reported herein and that the Corporation consider
these conditions in its oversight and monitoring of the Tennessee State Commission.

           The Commission did not maintain all required financial status reports

AmeriCorps provision #17 states "Commissions and Parent Organizations are required to
submit quarterly Financial Status Reports and three Progress Reports to the Corporation.
Commissions and Parent Organizations must submit these reports by the following dates and
include three copies along with the original." It continues to state "ArneriCorps State
programs and most AmeriCorps National sites that receive subgrants must submit at least
four Financial Status Reports to their respective Commission or Parent Organization. In
general, if a site has a Corporation-approved budget then the submission of a Financial Status
Report for that sitelsub-Grantee is required. CommissionsIParent Organizations are required
to forward Financial Status Reports from programs and budgeted sites to the Corporation's
Grants Office 30 days after the close of each calendar quarter. These reports should be
forwarded to the Grants Office. Annual Financial Reports shall be submitted within 90 days
of completion and will compare actual expenditures to budgeted amounts using the line item
categories in the grant budget form."
We identified several instances where the Commission did not maintain documentation
related to its Financial Status Reports. The lack of documentation relates to grants awarded
during the 1995, 1996 and 1997 grant years.

Specifically:

       Seven of 20 subgrantee files tested did not include all of the Financial Status Reports
       required to be submitted which prevented us from determining whether the
       Commission reported all Financial Status Reports to the Corporation; and

       For one of 20 subgrantee files tested, we could not determine if a revised Financial
       Status Report was submitted to the Corporation.

As a result, we could not determine whether the Commission submitted all required Financial
Status Reports to the Corporation in a timely manner.

We recommend that the Executive Director reemphasize the requirement that all Financial
Status Reports submitted by subgrantees, as well as Financial Status Reports submitted by
the Commission, to the Corporation be maintained and available upon audit. We also
recommend that the Program Officer continue to maintain the worksheet to support amounts
reported on each Financial Status Report submitted by the Commission to the Corporation,
until the full implementation of the Web-Based Reporting System. The new system should
incorporate an on-line program and Commission cumulative Financial Status Reporting with
an audit trail. The Commission should continue to be responsible for ensuring that data
collection is accurate and timely. In addition, we recommend that the Corporation follow up
with the Commission to determine that appropriate corrective actions are put into place to
address the conditions reported herein and that the Corporation consider these conditions in
its oversight and monitoring of the Tennessee State Commission.

At this preliminary assessment stage, we do not believe these findings to be significant
deficiencies in the Commission's operations. We do not consider a full-scope audit of the
Tennessee Commission's AmeriCorps programs necessary at this time. Rather, we
recommend that Corporation management annually assess the Commission's control
environment to ensure it remains effective and to identify potential negative changes to its
monitoring and oversight controls.
This report is intended solely for information and use of the Office of the Inspector General,
management of the Corporation for National and Community Service, the Tennessee
Commission on National and Community Service, and the United States Congress and is not
intended to be and should not be used by anyone other than these specified parties.




Washington, DC
September 24, 1999
APPENDIX A - COMMISSION FUNDING




                                              CORPORATION FOR NATIONAL SERVICE
                                          FUNDING TO THE TENNESSEE STATE COMMISSION
                                                             1995



                                  L
                                  AMERICORPS
                                                                                   L
                                                                                   PDAT
            FORMULA
              FUNDS
             $929.516
                                    COMPETITIVE
                                       FUNDS
                                      $913,520
                                                                FUNDS
                                                               $160,000
                                                                                    FUNDS
                                                                                    $79,391

                                                                                      NO
                                                                                                    FUNDS '"
                                                                                                    $238.367
                                                                                                                 I
            MATCH                      MATCH                   MATCH                MATCH           MATCH
            $524,795                   $436.488                $180,450            REQUIRED         $59.592




                                           TOTAL FUNDS AVAILABLE TO THE COMMISSION
                                                          $2,320,794




                                                  FUNDS AWARDED TO SUBGRANTEES
                                                            $2,049,995




      L
      AMERICORPS
                                   i
                                   AMERICORPS
           FORMULA                 COMPETITIVE
            $929,516                 $913,520

             MATCH                      MATCH                    MATCH               MATCH      I    MATCH
            $524,795                   $436,488                 $164,830                             $40,000

          TOTAL # OF
            SUBS
              3
                                     TOTAL # OF
                                       SUBS
                                         2
                                                              TOTAL # OF
                                                                SUBS
                                                                  14
                                                                                      SUBS      I   TOTAL # OF
                                                                                                      SUBS
                                                                                                        2

          TOTAL # OF                 TOTAL # OF               TOTAL # OF           TOTAL # OF       TOTAL # OF
            SlTES                      SlTES                    SlTES                SlTES            SlTES
              10                         14                       14                   13                2




Total Carryoverj for 1995 (Not ~ncludedIn the current year fundmg amounts above)
   Adm~n~strat~on  $    109,284


^    Amount In excess of requ~redmatch - LBS       $92.833
**
     Dlsablllty funds Included In grant award
APPENDIX A - COMMISSION FUNDING




                                                       CORPORATION FOR NATIONAL SERVICE
                                                    FUNDING TO THE TENNESSE STATE COMMISSION
                                                                       1996




        AMERICORPS
         FORMULA
          FUNDS                         FUNDS                          $148.000                   $80,000                $168,945
         $1,291,621                    $1 528.985

          MATCH                         MATCH                          MATCH '                    MATCH                  MATCH
         $1.148.407                    $1,068.837                      $188 224                  REQUIRED                $73.744




              \
                                                      TOTAL FUNDS AVAILABLE TO THE COMMISSION
                                                                     $3,217,551                                     1




                                                          FUNDS AWARDED TO SUBGMNTEES
                                                                    $2,972,815




                                AMERICORPS                AMERICORPS                                           PDAT
                                 FORMULA                  COMPETITIVE                                         $39,915
                                 $1,291,621

                                   MATCH                        MATCH                 MATCH                  MATCH
                                  $1,148.407                   $1,068,837            $259.829                  $0

                                 TOTAL # OF                TOTAL # OF               TOTAL # OF              TOTAL # OF
                                   SUBS.                     SUBS                     SUBS                    SUBS
                                                               5                        35                      11

                                 TOTAL # OF                TOTAL # OF               TOTAL # OF              TOTAL # OF
                                   SITES                     SITES                    SITES                   SITES
                                                               24                       37                      11




Total Canyovers for 1996 (Not Included In the current year funding amounts above)
  Administrat~on $     126.529
  PDAT           $        9.642
  Amencorps       $    190.396


    Amount In excess of requ~redmatch - L&S          $71.605
"   Dlsab~l~tyfunds ~ n d u d e dIn grant award
APPENDIX A                - COMMISSION FUNDING




                                                   CORPORATION FOR NATIONAL SERVICE
                                               FUNDING TO THE TENNESSEE STATE COMMISSION
                                                                  1997




          AMERICORPS
                            -                  1
                                       AMERICORPS
                                                                    1
                                                                  L&S                 PDAT
                                                                                                      1
                                                                                               ADMINISTRATION
                                                                                                  FUNDS **
           FORMULA                     COMPETITIVE               FUNDS               FUNDS
            FUNDS                         FUNDS                 $180,000             $55,000      $145,514
           $1,462,124                    $948,595
                                                                                       NO
             MATCH                        MATCH                  MATCH               MATCH         MATCH
            $1,074,750                    $585,204              $125,818            REQUIRED       $93.097
      I




                                                v                   7                   v
                                                TOTAL FUNDS AVAILABLE TO THE COMMISSION
                                                               $2,611,233




                                  1                  FUNDS AWARDED TO SUBGRANTEES
                                                               $2,308,112




             FORMULA
             $1,213,801

               MATCH
             $1,074,750




                  9

            TOTAL # OF
              SITES
                49




Total Carryovers for 1997 (Not mcluded In the current year fundlng amounts above)
 Adrnmstratlon     $     91.752
 PDAT              $    100,000
 Amer~Corps        $    275.968


*"   Dlsabll~tyfunds Included In grant award
APPENDIX A - COMMISSION FUNDING




                                                      CORPORATION FOR NATIONAL SERVICE
                                                  FUNDING TO THE TENNESSEE STATE COMMISSION
                                                                     1998
I



                                      --
                                          AMERICORPS
                                                                      1
                                                                     L&S                  P DAT
                                                                                                            1
                                                                                                     ADMINISTRATION
                                          COMPETITIVE               FUNDS                FUNDS          FUNDS "
             FUNDS                          FUNDS                  $176,237             $176,000        $328,309
            $1,202,503                     $1,538,980
                                                                                        NO
             MATCH                           MATCH                  MATCH             MATCH              MATCH
             $997,377                       $1,080,238             $284.998          REQUIRED           $244,412
     L




                                                   v                  r                    v
                                                   TOTAL FUNDS AVAILABLE TO THE COMMISSION
                                                                  $3,422,029




                                                         FUNDS AWARDED TO SUBGRANTEES
                                                                   $2,981.883




             FORMULA                     COMPETITIVE                                     $151,031
             $1,071.91 1                  $1,515,482

               MATCH                         MATCH                 MATCH                  MATCH          MATCH'
              $130,592                     $1,080,238              $284,998                 $0           $53,222

            TOTAL # OF                    TOTAL # OF              TOTAL # OF            TOTAL # OF     TOTAL # OF
              SUBS                          SUBS                    SUBS                  SUBS           SUBS




Total Carryovers for 1998 (Not lncluded In the current year fund~ngamounts above)
 Adm~n~strat~on $       109.284
 PDAT              $     10,000
 AmeriCorps        $    292.413


"
    D ~ s a b ~ lfunds
                  ~ t y Included In grant award
APPENDIX A - COMMISSION FUNDING




A
AMERICORPS
    FORMULA
     FUNDS
    $1,481.894

     MATCH
    $1,227,601




             AMERICORPS
              FORMULA



                  MATCH
                          f
                          AMERICORPS




                 $1,227,601
                              COMPETITIVE
                                FUNDS
                               $1,336,912

                                MATCH
                                $944.954




                                 I
                                 I   COMPETITIVE
                                      $1,336,912

                                           MATCH
                                           $944,954
                                                          CORPORATION FOR NATIONAL SERVICE
                                                      FUNDING TO THE TENNESSEE STATE COMMISSION




                                                            L&S
                                                          FUNDS
                                                          $174.000


                                                          MATCH '
                                                          $420.348




                                                             +




                                                              MATCH
                                                              $259.618
                                                                         1999




                                                                                     FUNDS
                                                                                    $140.000

                                                                                   NO
                                                                                 MATCH
                                                                                REQUIRED




                                                                                L
                                                                                PDAT
                                                                                       t
                                                      TOTAL FUNDSAVAILABLETO THE COMMISSION




                                                          FUNDS AWARDED TO SUBGRANTEES
                                                                    $3,476,302




                                                                                      $53.098



                                                                                      MATCH
                                                                                        $0
                                                                                                   FUNDS "
                                                                                                   $261,040


                                                                                                   MATCH
                                                                                                   $261.140




                                                                                                      TOTAL
                                                                                                 JJMINISTRATION $
                                                                                                       60.000

                                                                                                     MATCH
                                                                                                     %60.000
                                                                                                                    .
                                                                                                                    I




                                                                                                                        I
                                                                                                                        I
                                                                                                                              MISCELLANEOUS
                                                                                                                               COMPETITIVE
                                                                                                                                 FUNDS "'
                                                                                                                                  $454.168

                                                                                                                                 MATCH
                                                                                                                                 $282,490




                                                                                                                            MISCELLANEOUS
                                                                                                                            COMPETITIVE "'



                                                                                                                               MATCH
                                                                                                                               $282.490

                 TOTAL # OF                                 TOTAL # OF              TOTAL # OF     TOTAL 1) OF                TOTAL # OF
                   SUBS                                       SUBS                    SUBS                                      SUBS
                     9                                          15                      14                                        5

                 TOTAL # OF            TOTAL # OF           TOTAL # OF              TOTAL # OF     TOTAL # OF                 TOTAL # OF
                   SlTES                 SlTES                SITES                   SlTES          SlTES                      SlTES
                     53                                         51                      14                                         9




Total Carryoverr for 1999 (Not ~ncluded~n the current year fundlng amounts above)
 Adm~n~strat~on $              83.897
 Amencorps          $        187.775
 POAT               $          17.000


      Amount In excess of requ~redmatch - L&S      $119.91 1

...
"
      Dlsab~lltyfunds Included In grant award
      M~scelianeousfunds consist of Amenca Reads, Educat~onAward, and the Amencorps Promlse Fellowsh~p
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to assess
the Commission's internal controls surrounding the following to ensure compliance with Part
6 of A-133, Internal Control of the Compliance Supplement to OMB Circular A-133, Audits
of States, Local Governments, and Non-Profit Organizations: overall control environment;
activities allowed or unallowed and allowable costs; cash management; eligibility; equipment
and real property management; matching; period of availability of Corporation funds;
procurement and suspension, debarment; program income; and reporting by the Commission
to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Administering the Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support oversight of subgrantees and required reporting to the
       Corporation (including Financial Status reports, enrollment and exit forms); and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We
also determined whether the Commission has implemented the Web Based Reporting
System.

Evaluating and Monitoring Grants

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those governing eligibility
       of Members, service hour reporting, prohibited activities, payment of living
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are reported and
       compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to preliminarily assess the adequacy of the procedures
performed by the Commission to assess financial and programmatic compliance and related
controls at the sites. We also determineed whether the Commission received and reviewed A-
133 audit reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       determine whether a process is in place to identify training and technical assistance
       needs; and

       determine whether training and technical assistance is provided to identified
       subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPENDIX C       -   COMMISSION RESPONSE




                                                              January 4,2000



    Luise S. Jordan
    Lnspector General
    Corporation for National Service
    1201 New York Avenue, NW
    Washington, D.C. 20525

    Dear Ms. Jordan:

    I have reviewed the draft report on the pre-audit survey of the Tennessee Commission on National &
    Community Service received December 14, 1999. The report appears to be accurate and thorough. It
    reflects the intensive field work done by Urbach, Kahn & Werlin to address the scope of inquiry
    outlined by your office in the original notice to the Commission.

    We especially appreciate the recognition afforded the Tennessee Department of Finance &
    Administration Office of Program Accountability Review, cited in slightly different styling on page 3.
    We are pleased to share information about this subrecipient monitoring model and welcome additional
    opportunities you may identify.

    We look forward to receiving a final copy of the report. In the meantime, if we can be of assistance in
    any way, please let me know.

    Sincerely,



    Carol White
    Executive Director



    Xc:    Commission Chair Fred Cole
           Commissioner John Ferguson, TN Department of Finance & Administration
           Nancy Whitternore, Director, Resource Development & Support Division, F&A
           Leslie Silverman, Corporation for National Service program officer

                 ANDREWJACKSON BUILDING,Sum 1400 500 DUDERICK    S m NASHVILLE,    TUYNESSEE37243-1700
                            PROM:VOICE(615) 532-9250 * TDD (615) 532-9250 FAX
                                                                            (615) 5326950
                         THES T I ~a T v n c m ~m A* ~ p c aromm,
                                                           u      EWAL r r r m , rmrumr rmm E H R O Y F X . RErmsf, PIES
APPENDIX D - CORPORA TION RESPONSE




      MEMORANDUM
                                                                    AmeriCorps National Service   C 0 R P O RAT1 0 N
      DATE:         January 13,2000                                                               FOR NATIONAL

      TO:           Luise S. Jordan
                    Inspector General

      FROM:         Deborah R Jospin    O:r"p"
                    Director, AmeriCorps ,

      SUBJECT:      Comments on OIG Draft Report 00-09; Pre-Audif Survey of the Tennessee
                    Commission on National and Community Service

      We have reviewed the draft report on your pre-audit survey of the Tennessee
      Commission on National and Community Service. Your preliminary assessment
      indicates that the Tennessee Commission has effective controls in the areas evaluated and
      that a full-scope audit of the Tennessee Commission's programs is not necessary at this
      lime.

      The draft report did note two areas for improvement related to the receipt and
      maintenance of signed conflict of interest forms and Financial Status Reports. During the
      monitoring and the Administrative Standards Review, we will follow up with the
      Tennessee Commission on these items.


      Cc:     Wendy Zenker
              Gary Kowalczyk
              Peg Rosenbeny
